NO.

IN THE
SUPREME COURT OF THE UNITED STATES

JAMES FELTON, PETITIONER
vs.
UNITED STATES OF AMERICA, RESPONDENT
PROOF OF SERVICE
I, Devin McLaughlin, do swear and declare that on this date, September 21, 2021, as
required by the Supreme Court Rule 29, I have served the enclosed MOTION TO PROCEED
IN FORMA PA UPERIS AND PETITION FOR WRIT OF CERTIORARI on each party to
the above proceeding or that party's counsel, and on every other person required to be
served, by depositing an envelope containing the above documents in the United States mail
properly addressed to each of them and with first-class postage prepaid.
Respondent: The United States of America
Frank J. Balsamello, AIJSA
United States Attorney's Office for the
Southern District of New York
One St. Andrew's Plaza
New York, NY 10007
Frank.balsamello a,usdoj.gov

Elizabeth B. Prelogar
Acting Solicitor General Counsel of Record
Room 5614
Department of Justice
950 Pennsylvania Ave., N.W.
Washington, DC 20530-0001

James Felton
Register #34814-054
USP MCCREARY
P.O. BOX 3000
Pine Knot, KY 42635

I declare under penalty of perjury that the foregoing is true and correct.

i
'~

~

Executed on: September 21, 2021.
Devin McLaughlin, Esq.
CJA Counsel for Petitioner
Langrock Sperry &Wool, LLP
I'O Drawer 351
Middlebury, VT 05753-0351
E-mail: dmclau~hlin~i~l~ an~t•ock.com
Ph: (802) 388-6356 ~ Fx: (802) 388-6149
131 706.1

